                                               NATIONAL
                                                OFFICE OF SCIENCE
                                                          INSPECTOR GENERAL
                                                                  FOUNDATION
z                                                 OFFICE OF INVESTIGATIONS

$oo*D
 @.
 4

           1+0                           CLOSEOUT MEMORANDUM
                                                                                                          -
Case Number: I03110051/Case Closeout                                                     Page 1 of 1



      The National Science Foundation (NSF) Office of Inspector General (OIG) conducted a
      review of conferences, workshops and symposia with respect to compliance with
      program income requirement. An award given to a university1 to have students attend an
      international conference was selected.

      NSF/OIG reviewed the conference website and found that a conference fee was charged to cover
      meeting costs, food, lodging, transportation from the airport, and two field excursions 2.
      The University provide us with financial information and supporting documentation for the
      award.

                                                                              '
      The University responded to our request and explained that a third party coordinated the
      symposium. The University used the funds provided by NSF to pay registration fee to attend the
      symposium and partially support the travel costs of a few of the participants. The university did
      not manage the conference therefore; there were no fees collected by the university nor any
      lodging or catering costs. A small residual amount was used to pay for workshop materials.

      There were no lodging or catering costs charged to the grant or Program income generated.
      Accordingly, this case is closed.




           Footnote Redacted   .
           Footnote Redacted
           Footnote ~edacted
                                                                                                              r\


 NSF OIG         (11102)
                                                 -
